WAIVER

Supreme Court of the United States

No, 19-872

William D. Jenkins, Jx., et ux. v. Corey Chance, et al.
(Petitioners) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes: as .
(X Please enter my appearance as Counsel of Record for all respondents.

O There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

tx Tama member of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court. Should a response be requested,

the reeponse/will he Wess) member. —
CD teal Set 7
Signature S Oh. es 4 ae lei Son

Date: _ 9/27/2019

(Type or print) Name_ Dawn L. Johnson
OMr. CMs. (1 Mrs. O Miss

Firm___Douglas County Attorney's Office

Address_109 Third Street

City & State_Castle Rock, Colorado — Zip 80104

Phone _(303) 660 7362
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Cc: Tobie Jenkins
William Jenkins

Obtain status of case on the docket. By phone at 202-479-3084 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
